   December 30, 2005




Information Technology Management

Security Status for Systems Reported in
DoD Information Technology Databases
(D-2006-042)




            Department of Defense
           Office of Inspector General
Quality             Integrity        Accountability
  Additional Copies

  To obtain additional copies of this report, visit the Web site of the Department of
  Defense Inspector General at http://www.dodig.mil/audit/reports or contact the
  Secondary Reports Distribution Unit, Audit Followup and Technical Support at (703)
  604-8937 (DSN 664-8937) or fax (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact Audit Followup and Technical
  Support at (703) 604-8940 (DSN 664-8940) or fax (703) 604-8932. Ideas and requests
  can also be mailed to:

                      ODIG-AUD (ATTN: AFTS Audit Suggestions)
                        Department of Defense Inspector General
                          400 Army Navy Drive (Room 801)
                              Arlington, VA 22202-4704




Acronyms

ASD(NII)/CIO          Assistant Secretary of Defense for Networks and Information
                         Integration/Chief Information Officer
CFO                   Chief Financial Officer
CIO                   Chief Information Officer
CIR                   Capital Investment Report
DITPR                 DoD IT Portfolio Repository
DITSCAP               DoD Information Technology Security Certification and
                         Accreditation Process
FIPS                  Federal Information Processing Standards
FISMA                 Federal Information Security Management Act
GAO                   General Accountability Office
IT                    Information Technology
ITMA                  Information Technology Management Application
OMB                   Office of Management and Budget
OSD                   Office of the Secretary of Defense
SNaP-IT               Select Native Programming - Information Technology
USD(C)/CFO            Under Secretary of Defense (Comptroller)/Chief Financial Officer
                              INSPECTOR GENERAL
                             DEPARTMENT OF DEFENSE
                                400 ARMY NAVY DRIVE
                           ARLINGTON, VIRGINIA 22202-4704



                                                                          December 30,2005

MEMORANDUM FOR ASSISTANT SECRETARY OF DEFENSE FOR NETWORKS
                  AND INFORMATION INTEGRATIONICHIEF
                  INFORMATION OFFICER

SUBJECT: Report on Security Status for Systems Reported in DoD Information Technology
         Databases (Report No. D-2006-042)


     We are providing this report for review and comment. We considered management
comments on a draft of this report when preparing the final report.

        DoD Directive 7650.3 requires that all recommendations be resolved promptly. The
comments of the Deputy Assistant Secretary of Defense for Networks and Information
IntegratiodDeputy Chief Information Officer, responding for the Assistant Secretary of
Defense for Networks and Information IntegratiodChief Information Officer, were partially
or nonresponsive to most of the recommendations. Therefore, we request that the Assistant
Secretary of Defense for Networks and Information IntegrationIChief Information Officer
provide additional comments on those recommendations by January 27,2006.

         If possible, please send management comments in electronic format (Adobe Acrobat
file only) to AudATM(ii)dodia.osd.mil. Copies of the management comments must contain
the actual signature of the authorizing official. We cannot accept the 1 Signed I symbol in
place of the actual signature. If you arrange to send classified comments electronically, they
must be sent over the SECRET Internet Protocol Router Network (SIPRNET).

       We appreciate the courtesies extended to the staff. Questions should be directed to
Ms. Kathryn M. Truex at (703) 604-8966 (DSN 664-8966) or Ms. Karen J. Lamar at (703)
604-9005 (DSN 664-9005). The team members are listed inside the back cover. See
Appendix F for the report distribution.

                                   By direction of the Deputy Inspecm r a l for Auditing:




                                        Assistant Inspect& General
                                for Acquisition and Technology Management
                    Department of Defense Office of Inspector General
Report No. D-2006-042                                                      December 30, 2005
   (D2005-D000AL-0156.000)

             Security Status for Systems Reported in DoD Information
                               Technology Databases

                                     Executive Summary

Who Should Read This Report and Why? DoD managers to include, but not limited to, all
Component Chief Information and Chief Financial Officers responsible for reporting and certifying
security information in the Information Technology (IT) Registry and in the Information
Technology Management Application (ITMA) and their follow-on databases, the DoD IT Portfolio
Repository and Select Native Programming - IT, and program office and headquarters personnel
responsible for inputting information into DoD IT databases should read this report to improve the
quality of data being relied upon to make management and budget decisions.

Background. Improving IT security is one of the Office of Management and Budget’s highest
priorities in IT management. DoD reports the security status of mission critical, mission essential,
and select mission support systems in the IT Registry database and budget data on their IT
investments in the ITMA database. The IT Registry and ITMA are the only DoD-wide mechanisms
in place that DoD managers have to report the security status of DoD Component IT systems. The
DoD CIO Memorandum, “DoD Information Technology Registry Guidance for Fiscal Year 2005,”
December 21, 2004, required that all DoD Component Chief Information Officers update and
maintain their respective Component’s input to the IT Registry; certify that all mission critical and
mission essential systems are included in the IT Registry to include at least 50 percent of all mission
support systems by December 1, 2005 and 100 percent by September 30, 2006; and ensure
consistency between the IT Registry and ITMA.

The IT Registry is intended to provide a DoD-wide inventory of mission critical, mission essential,
and select mission support systems and contains data elements which are populated by DoD
Components that provide the security status of their IT systems. The IT Registry is used to report to
the Office of Management and Budget and to Congress on the effectiveness of DoD Component and
DoD-wide security programs. All systems included in the IT Registry will be merged into the DoD
IT Portfolio Repository by January 31, 2006, in accordance with guidance issued by the Deputy
Chief Information Officer on September 28, 2005.

ITMA was the authoritative source for DoD IT budget information through completion of the
Department’s FY 2006 IT budget preparation and submission. The follow-on database, Select
Native Programming – IT, will be used as the authoritative source for FY 2007 and beyond. DoD
Components must submit an Exhibit 300, “Capital Investment Report,” for all major
IT investments. DoD uses ITMA to plan, coordinate, and disseminate DoD IT budget exhibits and
as the primary means of justifying and managing IT investments. DoD Components use the CIR to
show management and the Office of Management and Budget that the Component has employed the
disciplines of good project management; presented a strong business case for the investment; and
defined the proposed costs, schedule, and performance goals for the investment if funding approval
is obtained.

Results. DoD Components did not accurately report the same IT system security data in the
IT Registry and the ITMA databases. Specifically, 120 of 148 IT systems (81 percent) reported in
FY 2006 President’s Budget Capital Investment Reports did not match to reports on the same


                                                  i
systems in the IT Registry and 87 of 148 IT Registry reports (59 percent) were not internally
consistent between the system mission criticality and the mission assurance category data
elements. Additionally, DoD Components did not submit timely, accurate, or complete
IT Registry certification and ITMA compliance statements to the Assistant Secretary of Defense
for Networks and Information Integration/Chief Information Officer. As a result, DoD, the Office
of Management Budget, and Congressional Committees are making management decisions
concerning technology operations, investments, security, interoperability, and architecture, based
upon erroneous information contained in DoD databases.

Recommendations made in two prior DoD Office of the Inspector General audit reports identified
weaknesses in management controls for accurate, consistent, and efficient reporting of IT system
information in DoD IT databases. Those recommendations, if implemented, would have
addressed part of the cause discussed in the Finding section of this report.

We recommend that the Assistant Secretary of Defense for Networks and Information
Integration/Chief Information Officer ensure that information in DoD IT databases is accurate and
complete. Specifically, we recommend that the Assistant Secretary of Defense for Networks and
Information Integration/Chief Information Officer immediately commence utilization of
automatic data integrity controls on DoD-wide IT databases; identify and impose penalties on
those DoD Component Chief Information Officers that did not implement controls, reconcile DoD
databases at least quarterly, and populate all required data elements; impose sanctions beginning
first quarter FY 2006 on those DoD Components that do not submit an IT Registry/DoD
Information Technology Portfolio Repository certification statement prior to the due date stating
that their Component information is complete and correct; require DoD Component Chief
Information Officers to submit IT Registry/DoD Information Technology Portfolio Repository
certifications prior to submitting the DoD Federal Information Security Management Act Report
to the Office of Management and Budget; advise the Office of Management and Budget and
Congress that DoD does not have viable internal controls over the accuracy of data it is reporting
concerning the security of its IT systems; develop internal control mechanisms, report the DoD
database discrepancies as a material control weakness, and develop a plan to track and correct
conditions; and adopt National Institute of Standards and Technology Standards to categorize
their IT systems. See the Finding section of the report for detailed recommendations.

Management Comments and Audit Response. The comments of the Deputy Assistant
Secretary of Defense for Networks and Information Integration/Deputy Chief Information Officer,
responding for the Assistant Secretary of Defense for Networks and Information Integration/Chief
Information Officer, were partially responsive or nonresponsive to most of the recommendations.
See the Finding section of the report for a discussion of management comments on the
recommendations and the Management Comments section of the report for the complete text of
the comments.

We request that the Assistant Secretary of Defense for Networks and Information
Integration/Chief Information Officer comment on this report by January 27, 2006.




                                                ii
Table of Contents

Executive Summary                                                                i

Background                                                                      1

Objectives                                                                      2

Finding
     DoD Information Technology Databases                                        4

Appendixes
     A.   Scope and Methodology                                                 21
     B.   Prior Coverage                                                        22
     C.   Information Technology Registry Systems Reviewed                      24
     D.   Mission Assurance Category and Mission Criticality Definitions        30
     E.   Summary of Data Elements and DoD Components Reviewed                  31
     F.   Report Distribution                                                   32

Management Comments
     Assistant Secretary of Defense for Networks and Information Integration/
           Chief Financial Officer                                              35
Background

         Improving information technology (IT) security is one of the Office of Management
         and Budget’s (OMB) highest priorities in IT management. In addition, Congress has
         challenged the quality of DoD IT management because IT documents and associated
         budget data that DoD provided were inaccurate, misleading, or incomplete. DoD
         reports the security status of their mission critical, mission essential, and select
         mission support systems in the IT Registry database and budget data on their IT
         investments in the Information Technology Management Application (ITMA)
         database. The IT Registry and ITMA are the only DoD mechanisms in place that
         managers DoD wide have to report the security status of DoD Component
         IT systems. Both databases are in a state of flux and are scheduled to be replaced by
         the DOD IT Portfolio Repository (DITPR) and the Select Native Programming –
         Information Technology (SNaP-IT) respectively in FY 2006. The Assistant
         Secretary of Defense for Networks and Information Integration/Chief Information
         Officer (ASD[NII]/CIO), is the principal staff assistant to the Secretary of Defense
         for DoD IT.

         The DoD CIO Memorandum, “DoD Information Technology Registry Guidance for
         Fiscal Year 2005,” December 21, 2004, required that all DoD Component Chief
         Information Officers (CIOs) update and maintain their respective Component’s input
         to the IT Registry on at least a quarterly basis; certify that all mission critical and
         mission essential systems are included in the IT Registry and enter at least 50 percent
         of all mission support systems by December 1, 2005, 75 percent by March 1, 2006,
         and 100 percent by September 30, 2006; and ensure consistency between DoD wide
         databases, such as the IT Registry, DITPR, ITMA, and SNaP-IT.

         Information Technology Registry. The IT Registry is used as the official DoD
         database to meet external and internal reporting requirements. The IT Registry is
         intended to provide a DoD-wide inventory of mission critical and mission essential
         systems, and by September 30, 2006, will include all mission support systems. The
         IT Registry contains fields or “data elements” which are populated by DoD
         Components that provide a security status on their IT systems for such items as
         accreditation requirements; risk management, security, and incident response plans;
         and security control test information.

         Information in the IT Registry is being used in FY 2005 to compile reports required
         by the Federal Information Security Management Act (FISMA) of 2002.
         Specifically, data elements in the IT Registry are used to compile the annual report to
         OMB and Congress on the effectiveness of DoD security programs, the quarterly
         report to OMB on the agency system and program metrics, and the E-Authentication
         Report and Privacy Act Assessments, which implement the E-Government Act.1
         During FY 2005, DoD planned to merge the IT Registry with the DITPR database,
         which will become the official unclassified DoD data source for FISMA;
         E-Authentication; Portfolio Management; Privacy Impact Assessments; the inventory

1
 The E-Government Act enhances the management and promotion of electronic Government services and
  processes by establishing a Federal CIO within OMB. It also establishes a broad framework of measures that
  require using Internet-based IT to enhance citizen access to Government information and services and to ensure
  privacy.



                                                       1
         of mission critical, mission essential, and mission support systems; and the registry
         for systems under the DoD Instruction 5000.2.

         Information Technology Management Application. DoD uses ITMA to plan,
         coordinate, and disseminate DoD IT Exhibit 300 Reports2 (Capital Investment
         Reports [CIRs]) as required by OMB and Congress. For the FY 2006 President’s
         Budget Request, ASD(NII)/CIO forwarded 172 CIRs, totaling $30 billion, to OMB.
         The CIR is the primary means of justifying and managing major IT investments.
         Public Law 104-106, “National Defense Authorization Act for Fiscal Year 1996,”
         division E, “Information Technology Management Reform,” February 10, 1996,
         commonly called the “Clinger-Cohen Act,” requires effective and efficient capital
         planning processes for selecting, managing, and evaluating the results of all major
         IT investments. The Clinger-Cohen Act requires executive agencies to establish
         goals for improving the efficiency and effectiveness of agency operations through the
         effective use of IT and to submit an annual report to Congress on its progress in
         achieving those program goals. DoD uses the CIR to meet that annual reporting
         requirement to Congress.

         DoD Regulation 7000.14-R, “Financial Management Regulation,” volume 2b,
         chapter 18, “Information Technology Resources and National Security Systems,”
         June 2004, required all DoD Components that have any resource obligations for IT or
         national security systems to submit a CIR that is complete, accurate, and consistent
         with the requirements of the Clinger-Cohen Act and OMB Circular A-11,
         “Preparation, Submission, and Execution of the Budget,” part 7, section 300,
         “Planning, Budgeting, Acquisition, and Management of Capital Assets,” July 2004.
         DoD Components must submit an Exhibit 300 or CIR for all major IT investments.3
         DoD Components use the CIR to show management and OMB that the Component
         has employed the disciplines of good project management; presented a strong
         business case for the investment; and defined the proposed costs, schedule, and
         performance goals for the investment if funding approval is obtained. When
         submitted, the CIR should be complete and accurate and provide all required
         information to OMB.

         In FY 2005, DoD began transitioning from ITMA to the SNaP-IT database, which is
         being utilized for the collection and reporting of FY 2007 IT budget information.


Objectives

         The overall audit objective was to assess the consistency of information that DoD
         Components report to the Office of the Secretary of Defense (OSD), OMB, and
         Congress on the security status of their IT systems. Specifically, the audit determined
         whether information in ITMA, which is used to prepare the DoD IT budget request
         and CIRs, is consistent with system security information in the IT Registry, which is


2
 An Exhibit 300 is also referred to as a CIR.
3
 Major IT investments require special management attention because of their importance to an agency’s mission,
 are for financial management and more than $500,000, have high executive visibility, and are defined as major
 investments by the agency’s capital planning and investment control process.



                                                      2
    used to prepare the DoD FISMA Report, and in accordance with OMB and DoD
    guidance. See Appendix A for discussion of the scope and methodology.


Management Controls

    We did not review management’s self-evaluation over the adequacy of their
    management controls. The audit focused on the accuracy of reporting security
    information by DoD Components in the IT Registry and ITMA databases. We
    identified that management at all levels omitted material internal controls that would
    ensure that security information in DoD databases was consistent. Specifically, data
    elements in the IT Registry and the ITMA databases did not identify the same
    information for the same system and therefore, did not demonstrate that the DoD CIO
    and Chief Financial Officer (CFO) communities had implemented sufficient controls
    to ensure that the reporting of system security information in those databases was
    accurate and complete. See the Finding section of the report for detailed discussions
    of the management control weaknesses.




                                          3
            DoD Information Technology Databases
            DoD Components did not accurately report the same IT system security data
            in the IT Registry and ITMA databases. We reviewed the security data
            elements for 148 IT systems reported in both databases and determined that:

                    •   120 systems (81 percent) reported in the IT Registry did not
                        match their corresponding CIRs in ITMA; and

                    •   87 IT Registry reports (59 percent) were not internally consistent
                        between the system mission criticality and the mission assurance
                        category data elements.

            Additionally, DoD Components did not submit timely, accurate, or complete
            IT Registry certifications and ITMA compliance statements to the
            ASD(NII)/CIO. The IT system security data elements were not correctly
            reported because the Component CIO and CFO communities did not enact
            sufficient controls or conduct reviews to ensure that information in FY 2006
            CIRs and in IT Registry Reports was the same information being reported in
            both databases. As a result, DoD, OMB, and Congressional Committees may
            be making management decisions concerning technology operations,
            investments, security, interoperability, and architecture, based upon erroneous
            information contained in the IT Registry and ITMA databases, which are used
            by DoD as the only means to report the security status of their IT systems and
            for making enterprise-wide investment and budgetary decisions.


DoD Information Technology Reporting
    The DoD CIO Memorandum, “DoD Information Technology Registry Guidance for
    Fiscal Year 2005,” December 21, 2004, required all DoD Component CIOs to ensure
    consistency between DoD databases, such as the IT Registry, DITPR, and ITMA.
    DoD Component security-related data element entries in ITMA and the IT Registry
    databases did not demonstrate that DoD CIOs were ensuring consistency and
    synchronization of Component system data in both databases. Specifically, 120 of
    148 IT systems (81 percent) reported in IT Registry reports with corresponding
    FY 2006 CIRs showed that the same security data elements in both reports were
    either inconsistent or missing for testing, accreditation, and planning information.
    See Appendix C for listing of DoD IT systems reviewed.

    Security Control Test Date. For all IT systems, DoD Components are required to
    provide the date of the most recent security control test performed for data elements
    in both the IT Registry and ITMA. However, for 112 of 148 IT systems (76 percent)
    reviewed, the security control test date data element was not consistent between the
    IT Registry and ITMA. Specifically, 77 of 112 IT Registry and ITMA reports
    identified a security control test date; however, the dates did not match. Additionally,
    21 IT Registry reports did not identify a security control test date when the
    corresponding ITMA CIR did, 2 ITMA CIRs did not identify a security control test
    date when the corresponding IT Registry report contained a date, 8 IT Registry and
    ITMA reports contained no responses for the security control test date, and


                                           4
3 IT Registry reports identified dates for when the system’s last security control tests
occurred; however, the ITMA CIR explicitly stated that the systems had not been
tested for security. Lastly, one IT Registry report stated “not applicable” for the
security control test date data element, while its corresponding ITMA CIR stated that
the system had been tested. Table 1 identifies the discrepancy between IT Registry
reports and ITMA CIRs for the security control test date data element.


       Table 1. Comparison of the Security Control Test Date Data Element
           Between IT Registry and ITMA Capital Investment Reports

                                      Systems                  System Reports
                                     Reviewed                  Did Not Agree                Percent
 Army                                     32                            27                   84.4
 Navy                                     33                            27                   81.8
 Air Force                                19                            15                   78.9
 Defense Agencies                         64                            43                   67.2
     Total                               148                          112                    75.7*
 *
  This is the percent of the total system reports that did not agree and the total systems reviewed.



Accreditation Date. DoD Components are required to identify the date an IT system
has been accredited, or certified to operate, in IT Registry and ITMA Capital
Investment Reports. Of 148 IT systems reviewed, 49 ITMA CIRs (33 percent) did
not match corresponding IT Registry reports for the accreditation date data element.
Specifically, 30 of 49 ITMA CIRs identified dates that did not match IT Registry
reports, 5 IT Registry reports and 13 ITMA CIRs provided no response, and
1 IT Registry report stated that the accreditation date data element was “not
applicable” when the corresponding ITMA CIR contained an accreditation date.
Table 2 identifies the discrepancy between IT Registry and ITMA Capital Investment
Reports for the accreditation date data element.




                                               5
      Table 2. Comparison of the Accreditation Date Data Element Between IT
                 Registry and ITMA Capital Investment Reports

                                         Systems               System Reports
                                         Reviewed              Did Not Agree                Percent
  Army                                         32                      12                     37.5
  Navy                                         33                      12                     36.4
  Air Force                                    19                       8                     42.1
  Defense Agencies                             64                      17                     26.6
      Total                                  148                       49                     33.1*
  *
      This is the percent of the total system reports that did not agree and the total systems reviewed.



Accreditation Status. DoD Components are required to provide the accreditation
status for systems in all IT Registry and ITMA Capital Investment Reports that have
undergone a certification and accreditation process. Systems that have undergone a
certification and accreditation process may be granted an authority to operate, an
interim authority to operate, an interim authority to test, or a denial of authority to
operate. Of the 148 IT systems reviewed, 19 ITMA CIRs (13 percent) did not match
corresponding IT Registry reports for the accreditation status data element.
Specifically, 13 of those 19 systems did not report the same accreditation status in
IT Registry and ITMA Capital Investment Reports, 1 ITMA CIR and 3 IT Registry
reports left the accreditation status data element blank, and 2 IT Registry reports
stated that the accreditation data element was “not applicable” when the
corresponding ITMA CIRs stated that the systems had an interim authority to operate.
Table 3 identifies the discrepancy between IT Registry and ITMA Capital Investment
Reports for the accreditation status data element.


      Table 3. Comparison of the Accreditation Status Data Element Between IT
                  Registry and ITMA Capital Investment Reports

                                           Systems              System Reports
                                          Reviewed              Did Not Agree                 Percent
  Army                                         32                           5                   15.6
  Navy                                         33                           6                   18.2
  Air Force                                    19                           5                   26.3
  Defense Agencies                             64                           3                    14.1
      Total                                   148                       19                      12.8*
  *
   This is the percent of the total system reports that did not agree and the total systems reviewed.




                                                  6
Accreditation Method. DoD Components are required to report the standard used
when accrediting an IT system. DoD Directive 8500.1, "Information Assurance,"
October 24, 2002, requires that all DoD IT systems utilize the DoD Information
Technology Security Certification and Accreditation Process (DITSCAP) to grant
certification and accreditation to any DoD IT system. The accreditation methodology
data element for 12 of 148 ITMA CIRs (8 percent) reviewed did not match
information in corresponding IT Registry reports. Specifically, six IT Registry
reports and two ITMA CIRs did not provide a response for the accreditation method
data element, one IT Registry report and its matching ITMA CIR identified differing
accreditation methods, and three IT Registry reports stated “not applicable” when
their corresponding ITMA CIRs identified that the DITSCAP was used. Table 4
identifies the discrepancy between the IT Registry reports and ITMA CIRs for the
accreditation method data element.


     Table 4. Comparison of the Accreditation Method Data Element Between IT
                 Registry and ITMA Capital Investment Reports

                                         Systems                System Reports
                                        Reviewed                Did Not Agree               Percent
 Army                                         32                          2                     6.3
 Navy                                         33                          2                     6.1
 Air Force                                    19                          4                   21.1
 Defense Agencies                             64                          4                     6.3
     Total                                  148                          12                     8.1*
 *
  This is the percent of the total system reports that did not agree and the total systems reviewed.



Accreditation Required. DoD Components are required to state in IT Registry and
ITMA Capital Investment Reports whether a system is required to complete a
DoD-approved IT security certification and accreditation process. The data element
for whether an accreditation was required for 6 of the 148 ITMA CIRs (4 percent)
reviewed was not consistent with corresponding IT Registry reports. Specifically,
four of the six IT Registry reports stated that an accreditation was not required when
the corresponding ITMA CIRs stated that it was, one IT Registry report did not
provide a response for the accreditation required data element when the ITMA CIR
stated that the accreditation was required, and the last IT Registry report stated that
accreditation was required when the corresponding CIR stated that it was not.
Table 5 identifies the discrepancy between IT Registry reports and ITMA CIRs for
the accreditation required data element.




                                               7
     Table 5. Comparison of the Accreditation Required Data Element Between
                IT Registry and ITMA Capital Investment Reports

                                         Systems                System Reports
                                        Reviewed                Did Not Agree               Percent
 Army                                          32                         1                   3.2
 Navy                                          33                         2                   6.1
 Air Force                                     19                         2                  10.5
 Defense Agencies                              64                         1                   1.6
     Total                                  148                           6                   4.1*
 *
  This is the percent of the total system reports that did not agree and the total systems reviewed.



System Security Authorization Agreement Status. For each IT system, the
IT Registry and ITMA Capital Investment Reports provided a system security
authorization agreement status, which is based on the method used to certify and
accredit that an IT system has the authority to operate. The DITSCAP is used to
certify and accredit a DoD IT system and is divided into four phases. Sixteen of the
148 ITMA CIRs (11 percent) reviewed did not match to the phase being reported in
corresponding IT Registry reports. Specifically, information for the system security
authorization agreement status for 3 of 16 ITMA CIRs did not agree with the
corresponding IT Registry report, 12 IT Registry reports did not provide a response
for system security authorization agreement status data element, and 1 IT Registry
report stated “not applicable” for the system security authorization agreement status
data element. Table 6 identifies the discrepancy between IT Registry reports and
ITMA Capital Investment Reports for the system security authorization agreement
status data element.


     Table 6. Comparison of the System Security Authorization Agreement Status
      Data Element Between IT Registry and ITMA Capital Investment Reports

                                     Systems                System Reports
                                    Reviewed                Did Not Agree                  Percent
 Army                                     32                          4                      12.5
 Navy                                     33                          8                      24.2
 Air Force                                19                          2                      10.5
 Defense Agencies                         64                          2                        3.1
     Total                              148                          16                      10.8*
 *
  This is the percent of the total system reports that did not agree and the total systems reviewed.




                                                8
Risk Management Plan. DoD Components are required to report whether an
IT system has a risk management plan. That plan identifies the risks and
vulnerabilities associated with the system, assesses the sensitivity of the data, and
identifies the approach to mitigate those risks and vulnerabilities. For 16 of the
148 ITMA CIRs (11 percent) reviewed, the corresponding IT Registry reports for the
risk management plan data element did not match. Specifically, 10 IT Registry
reports did not provide a response for the risk management plan data element when
the ITMA CIR identified that there was a plan for the system, and 4 IT Registry
reports stated that the plan was “not applicable” when the corresponding ITMA CIRs
stated that a risk management plan was in place. Additionally, two IT Registry
reports stated that there was no risk management plan for the system, while the
corresponding ITMA CIR explicitly stated that there was a plan. Table 7 identifies
the discrepancy between IT Registry and ITMA Capital Investment Reports for the
risk management plan data element.


 Table 7. Comparison of the Risk Management Plan Data Element Between IT
              Registry and ITMA Capital Investment Reports

                                    Systems                 System Reports
                                    Reviewed                Did Not Agree                  Percent
 Army                                     32                          5                      15.6
 Navy                                     33                          3                        9.1
 Air Force                                19                          2                      10.5
 Defense Agencies                         64                          6                        9.4
     Total                              148                          16                      10.8*
 *
  This is the percent of the total system reports that did not agree and the total systems reviewed.



Security Plan. DoD Components are required to state whether each IT system has a
system security plan. The system security plan provides an overview of the security
requirements of the system and describes the controls in place or planned for meeting
those requirements. Sixteen of the 148 ITMA CIRs (11 percent) reviewed did not
match the corresponding IT Registry reports for the security plan data element.
Eleven of the 16 ITMA CIRs had blank security plan information in their IT Registry
reports, and three ITMA CIRs provided a response that did not match IT Registry
reports. Two IT Registry reports stated that a security plan was “not applicable”
when corresponding ITMA CIRS identified that a security plan was in place. Table 8
identifies the discrepancy between IT Registry reports and ITMA CIRs for the
security plan data element.




                                               9
 Table 8. Comparison of the Security Plan Data Element Between IT Registry
                  and ITMA Capital Investment Reports

                                       Systems                System Reports
                                      Reviewed                Did Not Agree                Percent
 Army                                      32                           5                   15.6
 Navy                                      33                           5                     5.2
 Air Force                                 19                           2                   10.5
 Defense Agencies                          64                           4                     6.3
     Total                                148                         16                     10.8*
 *
  This is the percent of the total system reports that did not agree and the total systems reviewed.



Security Incident Response Plan. DoD Components are required to report whether
their IT systems had controls in place to recognize, report, monitor, and efficiently
handle security incidents and share this information with the appropriate
organizations. Fifteen of the 148 ITMA CIRs (10 percent) reviewed did not match
corresponding IT Registry reports for the security incident response plan data
element. Specifically, 11 of 15 IT Registry reports did not record a response for the
security incident response plan data element, 2 IT Registry reports and their
corresponding ITMA CIRs provided responses that did not match, and 2 IT Registry
reports stated that a security incident response plan was “not applicable” when the
corresponding ITMA CIRs identified that a security incident response plan was in
place. Table 9 identifies the discrepancy between IT Registry and ITMA Capital
Investment Reports for the security incident response plan data element.


     Table 9. Comparison of the Security Incident Response Plan Data Element
            Between IT Registry and ITMA Capital Investment Reports

                                    Systems                 System Reports
                                    Reviewed                Did Not Agree                  Percent
 Army                                     32                          5                     15.6
 Navy                                     33                          3                       9.1
 Air Force                                19                          2                     10.5
 Defense Agencies                         64                          5                       7.8
     Total                              148                          15                     10.1*
 *
  This is the percent of the total system reports that did not agree and the total systems reviewed.



Mission Assurance Category and Mission Criticality. DoD Directive 8500.1,
"Information Assurance," October 24, 2002, defines the mission assurance categories


                                                10
and the Deputy CIO Memorandum, "Department of Defense Information Technology
Registry Guidance for Fiscal Year 2005," December 21, 2004, defines mission
critical, mission essential, and mission support systems (based on requirements found
in DoD Instruction 5000.2, “Operation of Defense Acquisition System,” May 12,
2003). See Appendix D for definitions of mission assurance categories and mission
criticalities from the source documents. The relationship between the definitions is
the importance of potential impact should the system become inoperable. For
example, if a mission assurance category I or mission critical system would lose
capability that loss would severely impact operations. If a mission assurance
category II or mission essential system lost system capability, an organization or
mission could sustain operations a short period before seriously impacting those
operations, and the loss of capability for a mission assurance category III or mission
support system would not significantly impact mission effectiveness or operational
readiness. The relationship between mission assurance and mission criticality for
87 of 148 IT Registry Reports (59 percent) was not consistent. Of the 87 IT Registry
Reports:

       •   37 reports designated the IT system as mission essential with a mission
           assurance category III;

       •   18 reports designated the IT system as mission critical with a mission
           assurance category II;

       •   13 reports did not designate a mission assurance category;

       •   11 reports designated the IT system as mission critical with a mission
           assurance category III;

       •   4 reports designated IT system as mission essential with a mission
           assurance category I;

       •   2 reports indicated that the mission assurance category was “not
           applicable;”

       •   1 report designated the IT system as mission support with a mission
           assurance category I; and

       •   1 report designated the IT system as mission support with a mission
           assurance category II.

Table 10 identifies the discrepancy between the mission assurance category and
mission criticality data elements in the IT Registry.




                                     11
                  Table 10. Comparison Between Mission Assurance Category and
                      Mission Criticality Data Element in IT Registry Reports

                                           Systems                System Reports
                                          Reviewed                Did Not Agree                 Percent
      Army                                     32                         12                      37.5
      Navy                                     33                         23                      69.7
      Air Force                                19                         12                      63.2
      Defense Agencies                         64                         40                      62.5
          Total                               148                         87                      58.8*
      *
       This is the percent of the total system reports that did not agree and the total systems reviewed.



     Appendix C identifies the 148 IT systems reviewed and those systems with
     inaccurate and incomplete information for security data elements in the IT Registry
     and in ITMA and the inconsistencies between the mission assurance and mission
     criticality categories in IT Registry reports.

     The inconsistencies identified would not have occurred if the DoD were compliant
     with Federal Information Processing Standards Publication (FIPS) 199, “Standards
     for Security Categorization of Federal Information and Information Systems,”
     February 2004. OMB FISMA reporting guidance for both FY 2004 and FY 2005
     required all Federal agencies to report the security categorization of their IT systems
     in accordance with the FIPS 199 three levels of potential impact on organizations or
     individuals should there be a breach of security (i.e., a loss of confidentiality,
     integrity, or availability). These impact levels are: low, moderate, and high. All
     agencies must categorize their information and information systems using one of
     those three categories in order to determine which security controls should be
     implemented. Because DoD is not compliant with FIPS 199, on April 18, 2005, the
     Acting ASD(NII)/CIO directed that the mission assurance category level
     categorizations found in DoD Instruction 8500.2 be utilized to report the status of
     DoD IT systems populating the IT Registry for FY 2005 FISMA reporting purposes.
     However, the IT Registry is populated by systems in accordance with their mission
     critical, mission essential, or mission support status, and the data elements are not
     necessarily consistent. Adoption of the OMB and Congressionally directed FIPS 199
     will both resolve this internal DoD inconsistency and preclude aggregation of
     inconsistent data across the Federal agency spectrum.


DoD IT Database Certification and Compliance Statements

     DoD Components did not adhere to DoD policy and guidance when preparing
     compliance and certification statements. Specifically, DoD Components did not
     submit timely, accurate, or complete IT Registry certifications and ITMA compliance
     statements to ASD(NII)/CIO.



                                                    12
Information Technology Registry Certification Statement. The Deputy CIO
Memorandum, “DoD Information Technology Registry Policy Guidance for 2004,”
December 1, 2003, required that the DoD Component CIO certify in writing that all
IT systems—including mission critical and mission essential financial IT systems—
were properly registered in the IT Registry and that all required data elements were
correct; however, the FY 2005 Deputy CIO Memorandum did not. The FY 2005
Deputy CIO Memorandum included a certification template which recommended that
the Component CIO state that changes to mission critical and mission essential
systems were complete and correct; however, the FY 2005 policy memorandum did
not require that the Component CIO explicitly state in their certification letter that the
data elements for all systems, regardless of change, were complete and correct as did
the FY 2004 guidance.

We reviewed 41 DoD Components for FY 2004 IT Registry certification statements
and identified that 10 Components (24 percent) did not submit a certification for their
IT systems. Twenty-eight of 31 Components that submitted certification statements
stated that all their IT systems were registered in the IT Registry; however, only
8 Components certified that all required data elements were correct. Additionally,
24 of the 31 Components (77 percent) submitted certification statements were dated
after the July 15, 2004, due date and 4 certifications were not dated.

For FY 2005, the ASD(NII)/CIO required in the Deputy CIO Memorandum, “DoD
Information Technology Registry Guidance for Fiscal Year 2005,” December 21,
2004, that DoD Component CIOs complete their last update to the IT Registry no
later than September 1, 2005, six weeks after the July 22, 2005 due date for the
submission of the DoD Component FISMA reports to OSD. Additionally,
ASD(NII)/CIO required that DoD Components provide written IT Registry
certifications covering the period October 1, 2004, through September 30, 2005, by
October 15, 2005, one week after the October 7, 2005, deadline for submission of the
Department-wide FISMA report to OMB. ASD(NII)/CIO did not enact sufficient
controls to ensure the accuracy of information in the IT Registry—used to support the
DoD FISMA reports to OMB and Congress—because IT Registry updates and
required certification statements were permitted after submission of the consolidated
DoD report to OMB. The DoD report to OMB is based on system data uncertified by
DoD Components, and OSD has no other internal control mechanism for validating
the data utilized for management purposes by OSD, OMB, and Congress.

Capital Investment Report Statements of Compliance. DoD
Regulation 7000.14-R, volume 2b, chapter 18, required that the DoD Component
CIO and CFO sign a joint memorandum stating that their budget submissions were
complete; accurately aligned with the primary budget, program and/or acquisition
materials; and consistent with the Clinger-Cohen Act, OMB Circular A-11, the DoD
CIO guidance memorandums, and the Paperwork Reduction Act. The FY 2006
Budget Estimate Submission statements of compliance were due to ASD(NII)/CIO
on September 9, 2004.

All DoD DoD Components were required to submit statements of compliance for
their IT budget requests, but not all Components had major investments requiring
preparation of an ITMA CIR. Of the 15 Components that submitted ITMA CIRs,
13 Components submitted statement of compliance memorandums for their
investment information in ITMA, while the Navy and the Defense Commissary


                                       13
    Agency did not. However, only 2 of the 13 statements were dated on or before the
    September 9, 2004 due date; 4 of the 13 statements were not signed by both the CIO
    and the CFO; and 7 statements did not include the required statements that their
    budget submissions were complete; accurately aligned with the primary budget,
    program and or acquisition materials; and consistent with DoD and OMB guidance.


Management Controls Over DoD IT Databases

    Information technology system security data elements were not correctly reported in
    DoD databases because the CIO and CFO communities did not enact sufficient
    controls or conduct reviews to ensure that the same information was being reported in
    the IT Registry and ITMA. Recommendations made in two prior DoD IG audit
    reports identified weaknesses in management controls for accurate, consistent, and
    efficient reporting of IT system information in DoD IT databases and recommended
    that the Under Secretary of Defense (Comptroller)/Chief Financial Officer
    (USD[C]/CFO) and the ASD(NII)CIO enact such controls to mitigate those
    management weaknesses. Those recommendations, if implemented, would have
    assisted USD(C)/CFO and ASD(NII)/CIO to implement controls that would have
    addressed part of the cause discussed in the Finding section of this report.

    DoD IG Report No. D-2003-117, “Systems Inventory to Support the Business
    Enterprise Architecture,” July 10, 2003, recommended the Office of USD(C)/CFO
    and ASD(NII)/CIO, as part of the Business Modernization and Systems Integration
    Governance Concept, establish procedures to verify through the architecture domain
    owners that the data included in the architecture domain database mirror what is
    included in the IT Registry and any other databases maintained for systems in a
    particular domain and that the completeness of the data be verified periodically to
    ensure that the data was kept current, consistent, and accurate to enhance budget
    decisions and respond to OMB and Congressional reporting requirements.
    USD(C)/CFO and ASD(NII)/CIO responded on August 15, 2003, that the
    Department would create an “integrated repository” that would allow the use of
    current data structures already developed for the IT Registry, the Business
    Management Modernization Program database, and ITMA to use a single source
    update to post information to all databases, thus ensuring equality of data for
    updating the databases. The intent of the “integrated repository” was to use a single
    source update process to post information to all databases. USD(C)/CFO and
    ASD(NII)CIO also stated that the common data currently maintained in the
    IT Registry, the Business Management Modernization Program database, and ITMA
    would be reconciled to ensure that the initial baseline of data included in the
    integrated data repository agrees.

    As of October 2005, the “integrated repository” had not been developed, although
    work is underway to form an IT Management Data Community of Interest at some
    future time. With passage of the National Defense Authorization Act for FY 2005,
    section 332, responsibility for management oversight of the Defense business
    information systems has transferred from USD(C)/CFO to the Defense Business
    System Management Committee chaired by the Deputy Secretary of Defense.
    Responsibility to ensure that consistent and accurate information is being reported in




                                          14
    DoD IT databases; however, remains with ASD(NII)/CIO as the proponent of both
    the IT Registry and ITMA (and follow-on databases DITPR and SNaP-IT).

    DoD IG Report No. D-2003-008, “Implementation of the Government Information
    Security Reform by the Defense Finance and Accounting Service for the Defense
    Integrated Financial Systems,” October 7, 2002, recommended that ASD(NII)/CIO
    (formally known as the Assistant Secretary of Defense for Command, Control,
    Communications, and Intelligence) develop effective data integrity controls, in
    coordination with the DoD Components, that ensure the accuracy, completeness, and
    validity of information entered in the DoD IT Registry database
    (Recommendation 1.a.). DoD IG Report No. D-2003-008 also recommended that
    ASD(NII)/CIO reconcile, on an annual basis, the systems in the IT Registry with
    those reported by the DoD Component CIO (Recommendation 1.b.). ASD(NII)/CIO
    concurred with Recommendation 1.a. stating that they expect users to enter data
    correctly and that they rely on the user’s internal business process to ensure accuracy,
    completeness, and validity of information. ASD(NII)/CIO also said that they would
    issue clarifying IT Registry guidance that would address Recommendation 1.a.
    ASD(NII)/CIO partially concurred with Recommendation 1.b. stating that DoD
    Component CIOs certify the accuracy of systems on an annual basis and that the new
    IT Registry guidance would require those Component CIOs to reconcile their mission
    critical and mission essential data on a quarterly basis and to certify the accuracy of
    information entered by their organizations.

    ASD(NII)/CIO corrective actions to recommendations in DoD IG Report
    Nos. D-2003-117 and D-2003-008 remain insufficient to ensure that accurate and
    complete information is being reported in DoD databases used to report on the
    security status of DoD IT systems to OMB and to the Congress.


Conclusion

    The IT system information maintained in the IT Registry and ITMA is unreliable
    because the DoD CIO and CFO communities failed to enact sufficient controls to
    ensure the accuracy, consistency and synchronization of Component system data
    between those DoD databases, as mandated in DoD guidance. In addition, DoD is
    not in compliance with NIST FIPS 199, “Standards for Security Categorization of
    Federal Information and Information Systems.” The flawed information in the
    IT Registry and in ITMA is the only means for DoD to report the security status of
    their IT systems enterprise-wide and is being used to compile reports for FISMA, the
    Privacy Act, and the E-Authentication reporting requirements, as well as the DoD IT
    budget request and justification and the DoD response to the requirement of National
    Defense Authorization Act for FY 2005 section 332. DoD, OMB, and Congressional
    Committees are making enterprise-wide management decisions concerning
    IT operations, investments, security, interoperability, and architecture, based upon
    database reports containing erroneous information. The incorrect, inaccurate, and
    incomplete information in the current DoD IT databases diminishes the utility of
    those databases for management oversight purposes. Unless DoD management
    develops and enforces effective internal quality assurance controls over Component
    controlled data in the new DITPR and SNaP-IT databases, this situation will
    continue.



                                          15
Recommendations, Management Comments, and Audit
  Response
    We recommend that the Assistant Secretary of Defense for Networks and
    Information Integration/Chief Information Officer ensure that the information
    in DoD information technology databases is accurate and complete. Specifically,

    1. Immediately commence utilization of automatic data integrity controls on
    DoD-wide information technology databases to preclude population of data
    elements with invalid entries as recommended by the Office of the Inspector
    General in August 2002.

    Management Comments. The Deputy ASD(NII)/Deputy CIO concurred stating the
    DoD CIO plans to establish the DoD IT Management Data Community of Interest in
    December 2005 that will include a net-centric capability for publishing and
    subscribing to all authoritative IT management data. The process established by the
    Community of Interest will ensure that data elements across the department are
    populated and traceable.

    Audit Response. The Deputy ASD(NII)/Deputy CIO comments are partially
    responsive. We request the Deputy CIO provide detailed information on the
    Community of Interest initiative to include implementation schedule and responsible
    offices.

    2. Identify and impose penalties beginning in the first quarter of FY 2006 on
    those DoD Component Chief Information Officers that did not:

    Management Comments. The Deputy ASD(NII)/Deputy CIO nonconcurred with
    imposing penalties on the CIO stating that existing mechanism can be strengthened to
    enforce data integrity.

    Audit Response. The Deputy ASD(NII)/Deputy CIO were nonresponsive. We
    request the Deputy ASD(NII)/Deputy CIO identify those current and new
    mechanisms that will be used to strengthen and enforce data integrity within and
    between DoD databases.

            a. Implement sufficient controls to ensure that all common security data
    elements in the Information Technology Registry/DoD Information Technology
    Portfolio Repository and the Information Technology Management
    Application/Select and Native Programming Information Technology databases
    are the same;

             Management Comments. The Deputy ASD(NII)/Deputy CIO concurred
    stating that FISMA, DITPR, and IT budget guidance will reemphasize that each
    Component CIO is responsible for ensuring that all common security data elements in
    the IT Registry/DITPR and the ITMA/SNaP-IT databases are the same.

            Audit Response. The Deputy ASD(NII)/Deputy CIO comments were
    nonresponsive. The issuance of guidance is the first step to implementing sufficient
    controls to ensure the commonality of security information in DoD databases;


                                         16
however, additional controls are required as the inconsistencies in DoD databases has
been an unresolved issue. We first highlighted the need for additional controls in
DoD IG Report Nos. D-2003-008 and D-2003-117; however, those recommendations
were not implemented. Therefore, we request the Deputy ASD(NII)/Deputy CIO
reconsider this recommendation and implement sufficient controls to ensure that all
common security data elements in the IT Registry/DITPR and ITMA/SNaP-IT are the
same.

       b. Reconcile the security data elements in the Information Technology
Registry/DoD Information Technology Portfolio Repository and the Information
Technology Management Application/Select and Native Programming
Information Technology databases at least quarterly to ensure that they are the
same; and

        Management Comments. The Deputy ASD(NII)/Deputy CIO partially
concurred stating because the IT budget data, collected in SNaP-IT, is done so
bi-annually and that quarterly reconciliations would be inefficient and provide no
benefit. She stated that DoD will establish an automated annual security data
elements reconciliation process that will be institutionalized through the databases’
Configuration Control Boards with results of corrective actions being reported to the
DoD CIO and CIO Executive Board.

         Audit Response. The Deputy ASD(NII)/Deputy CIO comments were
partially responsive. The Deputy ASD(NII)/Deputy CIO did not state when she will
establish the reconciliation process as part of the databases’ Configuration Control
Boards, results and status of necessary corrective action reporting.

       c. Populate all required data elements in the Information Technology
Registry/DoD Information Technology Portfolio Repository and the Information
Technology Management Application/Select Native Programming – Information
Technology databases.

         Management Comments. The Deputy ASD(NII)/Deputy CIO concurred
stating that the DoD CIO is in the process of developing annual DITPR guidance,
expected to be issued in December 2005, that will identify mandatory data elements
that must be populated within 90 days. If uncorrected after 90 days, the system will
be deleted from DITPR and identified to the DoD CIO. The Deputy
ASD(NII)/Deputy CIO stated that ASD(NII), Resources Directorate, is in the process
of identifying those data elements that are required in SNaP-IT and issuing those
requirements to the SNaP-IT development team.

       Audit Response. The Deputy ASD(NII)/Deputy CIO comments were
responsive to the recommendation; therefore, no further comments are required.

3. Include the requirement in all future DoD Information Technology Portfolio
Repository guidance that DoD Components explicitly certify in writing that the
information in the DoD Information Technology Portfolio Repository is
complete and correct.

Management Comments. The Deputy ASD(NII)/Deputy CIO concurred stating
that in response to the FY 2005 National Defense Authorization Act, the Department


                                      17
recently issued a Concept of Operations for Investment Review Boards. That
document provides the necessary detail regarding governance, roles, responsibilities,
processes, controls, and reporting requirements to ensure that component IT
investments are visible to the highest levels of DoD and are in compliance with
mission area guidance and recommendations.

Audit Response. The Deputy ASD(NII)/Deputy CIO comments were
nonresponsive. We request that the Deputy ASD(NII)/Deputy CIO provide
additional comments on this recommendation as she did not state whether she would
require, in all future DITPR guidance, that DoD Components explicitly certify in
writing that the information in DITPR is complete and correct. Further, DITPR is the
authoritative DoD database for all IT management data, to include the warfighting,
intelligence, and enterprise information environment mission areas in addition to the
defense business systems addressed by the FY 2005 National Defense Authorization
Act.

4. Review the Information Technology Registry/DoD Information Technology
Portfolio Repository certifications to ensure that DoD Components are
submitting required certification. Identify and impose sanctions beginning in
the first quarter FY 2006 on those DoD Components that do not:

        a. Submit a certification prior to the due date;

        b. Include a date on the certification statement; and

       c. Explicitly state that the information in the Information Technology
Registry/DoD Information Technology Portfolio Repository is complete and
correct.

Management Comments. The Deputy ASD(NII)/Deputy CIO concurred stating
that those DoD CIO’s who do not submit a certification prior to the due date, include
a date on the certification statement, and explicitly state that the information in the
IT Registry/DITPR is complete and correct, will be identified to the DoD CIO and
required to explain their inactions to the DoD CIO Executive Board.

Audit Response. The Deputy ASD(NII)/Deputy CIO comments were responsive to
the recommendation; therefore, no further comments are required.

5. Require DoD Components Chief Information Officers in FY 2006 and
beyond to submit the Information Technology Registry/DoD Information
Technology Portfolio Repository certifications prior to submitting the DoD
Federal Information Security Management Act Report to the Office of
Management and Budget.

Management Comments. The Deputy ASD(NII)/Deputy CIO concurred stating
that certifications will be required annually on the first of September.

Audit Response. The Deputy ASD(NII)/Deputy CIO comments were responsive to
the recommendation; therefore, no further comments are required.




                                      18
6. Advise the Office of Management and Budget and Congress that DoD does
not have viable internal controls over the accuracy of data it is reporting
concerning the security of its information technology systems and investments
and caveat all reports based on data drawn from unreliable databases, such as
the Information Technology Registry/DoD Information Technology Portfolio
Repository and the Information Technology Management Application/Select
Native Programming – Information Technology until such time as demonstrably
effective internal controls have been in place for at least one full year reporting
cycle.

Management Comments. The Deputy ASD(NII)/Deputy CIO nonconcurred stating
that the FY 2007 Exhibit 300 review process has greatly improved the data quality of
the security data submissions in the Exhibit300s. She stated that resource managers
were briefed on findings identified by the DoD, Office of the Inspector General on
the FY 2006 Exhibit 300s and all Component FISMA IA officials were briefed to
review both databases for consistency for the FY 2007 submissions.

Audit Response. The Deputy ASD(NII)/Deputy CIO comments were
nonresponsive. Although the Deputy ASD(NII)/Deputy CIO stated that the
Exhibit 300 data quality has greatly improved and that IA officials were briefed to
review consistency between the databases, the fact remains that internal controls are
not effective to ensure the accuracy of reporting the security of DoD IT systems and
investments as inconsistencies still remain. We request that the Deputy
ASD(NII)/Deputy CIO explain the specific internal controls implemented to
substantiate their conclusion that the FY 2007 Exhibit 300 review process has
improved the data quality and that briefing Component FISMA officials regarding
database consistency constitutes an effective internal control.

7. Develop internal control mechanisms other than Component Chief
Information Officer and Chief Financial Officer certifications, report the
discrepancies between DoD databases as a material control weakness, and
develop a Plan of Action and Milestones to track and correct conditions.

Management Comments. The Deputy ASD(NII)/Deputy CIO concurred with the
development of internal control mechanisms other than Component CIO and CFO
certifications stating that the ITMA application is being re-hosted as a components of
SNaP-IT. Once re-hosted, the Deputy Assistance Secretary of Defense for Resources
and the Director, Program Analysis and Evaluation will work toward integrating the
IT budget with the overall DoD budget and adequate management controls should be
available to ensure alignment with the IT budget and the overall DoD budget and the
Statement of Compliance can be eliminated.

The Deputy ASD(NII)/Deputy CIO nonconcurred with reporting discrepancies
between DoD databases as a material control weakness and developing a Plan of
Action and Milestone stating that the inconsistencies do not represent a material
weakness and that ASD(NII)/CIO has thoroughly examined database requirements
and identified areas to strengthen the integration of or interface between databases.

Audit Response. The Deputy ASD(NII)/Deputy CIO comments were
nonresponsive. We request that the Deputy ASD(NII)/Deputy CIO provide the
management controls that will be used to ensure alignment with the IT budget and the


                                      19
overall DoD budget. Additionally, we request that the Deputy ASD(NII)/Deputy
CIO reconsider reporting the discrepancies between authoritative DoD databases for
the IT budget and IT data management as a material control weakness and not
developing a Plan of Action and Milestone.

8. Adopt National Institute of Standards and Technology Federal Information
Processing Standards Publication 199 to categorize information and information
systems and revise the Information Technology Registry/DoD Information
Technology Portfolio Repository and the Information Technology Management
Application/Select Native Programming – Information Technology data
elements accordingly.

Management Comments. The Deputy ASD(NII)/Deputy CIO nonconcurred stating
that there are fundamental differences between FIPS 199 potential impact definitions
and DoD Mission Assurance Categories and confidentiality requirements that DoD
uses to categorize information systems. She explained that the difference is that
FIPS 199 focuses on potential impact to the organization and is not applicable to
National Security Systems while the Mission Assurance Category focuses on impact
to operational readiness and mission effectiveness.

The Deputy ASD(NII)/Deputy CIO further stated that DoD IA policy promulgated in
DoD Instruction 8500.2 is more stringent that FIPS 199 for confidentiality because
FIPS 199 definition for MODERATE and HIGH impact equate to classified
information for DoD which requires more stringent IA controls that also enhances
integrity and availability by restricting both physical and logical access. The Deputy
ASD(NII)/Deputy CIO stated that for integrity, DoD IA policy is more stringent
because it requires absolute integrity at the FIPS 199 MODERATE and HIGH impact
levels and that the availability controls can be compared to the three impact levels in
FIPS 199 and appear essentially equivalent.

Audit Response. The Deputy ASD(NII)/Deputy CIO comments were nonresponsive
to the recommendation; however, no further comments are required at this time. The
subject of applicability of NIST standards and guidelines to DoD National Security
Systems and non-IT National Security Systems is being pursued between the Deputy
ASD(NII)/Deputy CIO and the DoD, Office of the Inspector General in a separate
forum.




                                      20
Appendix A. Scope and Methodology
   We reviewed 172 CIRs found in ITMA that DoD submitted to OMB and the
   Congress with the FY 2006 President’s Budget request. We determined that
   148 CIRs were IT systems also being reported in the IT Registry for system security
   reporting purposes under FISMA. The remaining 24 CIRs were identified by
   program officials as infrastructure, an investment or initiative, or a mission support
   system; and therefore, were not reported in the IT Registry. We reviewed and
   compared responses for the following nine security-related data elements in the
   IT Registry and ITMA: security control test date, accreditation date, accreditation
   status, accreditation method, accreditation required, system security authorization
   agreement status, risk management plan, security plan, and security incident response
   plan. We also reviewed and compared responses in IT Registry individual system
   reports for mission assurance category and mission criticality data elements. We
   assessed the consistency of information in reports prepared by DoD Components in
   the ITMA and IT Registry databases, as well as the internal consistency of security
   data elements in the IT Registry. The Component data contained in those databases
   is utilized by OSD to manage the information assurance program of the Department
   and to make congressionally required reports regarding that program to OMB and
   Congress.

   We reviewed DoD Component CIO IT Registry certification statements to identify
   whether all systems were properly registered in the IT Registry and that all required
   data elements were complete and accurate. We also reviewed ITMA CIR statements
   of compliance for certification that budget submissions contained required
   information and were in compliance with DoD policy and guidance.

   We evaluated the reporting process and the completeness of information in
   IT reports, based on report preparation guidance from the Clinger-Cohen Act, OMB
   Circular A-11, DoD Regulation 7000.14-R, the DoD CIO FY 2004 and FY 2005 IT
   Registry guidance memorandums, FISMA, and the Paperwork Reduction Act. We
   reviewed relevant documents addressing IT reporting guidance for DoD databases
   dated from July 2004 through September 2005. We met with analysts responsible for
   IT budget reports and the IT Registry within ASD(NII) to obtain access to IT system
   reports and to understand the FY 2005 reporting process of the DoD IT systems in
   various databases.

   We performed this audit from May 2005 through November 2005 in accordance with
   generally accepted government auditing standards.

   Use of Computer-Processed Data. We did not use computer-processed data to
   perform this audit.

   Government Accountability Office High-Risk Area. The Government
   Accountability Office has identified several high-risk areas in DoD. This report provides
   coverage of the Protecting the Federal Government’s Information-Sharing Mechanisms
   and the Nation’s Critical Infrastructures high risk area.




                                          21
Appendix B. Prior Coverage
      During the last 5 years, the Government Accountability Office (GAO) and the
      Department of Defense Inspector General have issued 17 reports discussing the
      reliability of DoD IT budget submission. Unrestricted GAO reports can be accessed
      over the Internet at http://www.gao.gov. Unrestricted DoD IG reports can be
      accessed at http://www.dodig.mil/audit/reports.


GAO
      GAO Report No. GAO-05-552, “Weaknesses Persist at Federal Agencies Despite
      Progress Made in Implementing Related Statutory Requirements,” July 15, 2005

      GAO Report No. GAO-05-381, “DoD Business System Modernization: Billions
      Being Invested Without Adequate Oversight,” April 29, 2005

      GAO Report No. GAO-04-858, “Defense Acquisitions: The Global Information Grid
      and Challenges Facing Its Implementation,” July 28, 2004

      GAO Report No. GAO-04-823, “Federal Chief Information Officers:
      Responsibilities, Reporting Relationships, Tenure, and Challenges,” July 21, 2004

      GAO Report No. GAO-04-615, “DoD Business System Modernization: Billions
      Continue to Be Invested with Inadequate Management Oversight and
      Accountability,” May 27, 2004

      GAO Report No. GAO-04-731R, “DoD Business Systems Modernization: Limited
      Progress in Development of Business Enterprise Architecture and Oversight of
      Information Technology Investments,” May 17, 2004

      GAO Report No. GAO-04-115, “Improvements Needed in the Reliability of Defense
      Budget Submissions,” December 19, 2003


DoD IG

      DoD Inspector General Report No. D-2005-099, “Status of Selected DoD Policy on
      Information Technology Governance,” August 19, 2005

      DoD Inspector General Report No. D-2005-094, “Proposed DoD Information
      Assurance Certification and Accreditation Process,” July 21, 2005

      DoD Inspector General Report No. D-2005-083, “Reporting of DoD Capital
      Investments for Information Technology in Support of the FY 2006 Budget
      Submission,” June 10, 2005




                                           22
DoD Inspector General Report No. D-2005-054, “DoD Information Technology
Security Certification and Accreditation Process,” April 28, 2005

DoD Inspector General Report No. D-2005-029, “Management of Information
Technology Resources Within DoD,” January 27, 2005

DoD Inspector General Report No. D-2005-023, “Assessment of DoD Plan of Action
and Milestone Process,” December 13, 2004

DoD Inspector General Report No. D-2005-002, “Reporting of DoD Capital
Investments for Technology in Support of the FY 2005 Budget Submission,”
October 12, 2004

DoD Inspector General Report No. D-2004-081, “Reporting of DoD Capital
Investments for Information Technology,” May 7, 2004

DoD Inspector General Report No. D-2003-117, “Systems Inventory to Support the
Business Enterprise Architecture,” July 10, 2003

DoD Inspector General Report No. D-2003-008, “Implementation of the Government
Information Security Reform by the Defense Finance and Accounting Service for the
Defense Integrated Financial System,” October 7, 2002




                                   23
Appendix C. IT Registry and ITMA
             Systems Reviewed
                                                             Inconsistent Data Between:
                                                                            IT Registry
                                                          IT Registry Mission Assurance
                                                          and ITMA         and Criticality
                                                             CIRs            Categories
                   Army Systems
1    Advanced Field Artillery Tactical Data System            no               no
2    All Source Analysis System                               yes              no
3    Army Airborne Command and Control System                 yes              no
4    Battle Command Sustainment Support System                yes              no
5    Combat Terrain Information System                        yes              no
6    Defense Message Service – Army                           yes              yes
7    Distributed Learning System                              no               no
8    Distributive Training Technology                         yes              no
9    Electronic Military Personnel System                     yes              yes
10   Enhanced Position Location Reporting System              yes              no
11   Enterprise Human Resources System                        yes              yes
12   Force XXI Battle Command Brigade and Below               yes              no
13   Forward Area Air Defense Command and Control             yes              no
     System
14   General Fund Enterprise Business System                  yes               no
15   Global Combat Support System – Army                      yes               no
16   Global Command and Control System – Army                 no                no
17   Guardnet XXI, The Army National Guard’s Wide             yes               no
     Area Network
18   Installation Support Module                              yes              yes
19   Joint Computer-Aided Acquisition and Logistics           yes              yes
     Support
20   Joint Tactical Radio System – Cluster 1                  yes              yes
21   Joint Tactical Radio System – Joint Program Office       yes              yes
     (JPO)
22   Logistics Modernization Program                          yes              yes
23   Maneuver Control System                                  yes              no
24   Personnel Enterprise Support – Automation                yes              yes
25   Reserve Component Automation System                      yes              yes
26   Secure Mobile Anti-Jam Reliable Tactical-Terminal        yes              no
27   Single Channel Ground and Airborne Radio System          yes              no
28   Tactical Operation Centers                               yes              yes




                                             24
                                                            Inconsistent Data Between:
                                                                           IT Registry
                                                         IT Registry Mission Assurance
                                                         and ITMA         and Criticality
                                                            CIRs            Categories
            Army Systems (cont’d)
29   Transportation Coordinators’ Automated                  no                no
     Information for Movements System II
30   US Army Accessions Command Integrated                   yes               no
     Automation Architecture
31   US MEPCOM Integrated Resource System                    yes              yes
32   Warfighter Information Network - Tactical               yes              no


                   Navy Systems
1    Automated Teller Machines – At Sea                      yes              no
2    Aviation Supply Chain and Maintenance –                 no               yes
     Enterprise Resource Planning
3    Baseline Advanced Industrial Management Express         yes              yes
4    Claimant Financial Management System                    yes              yes
5    Deployable Joint Command and Control                    yes              no
6    Electronic Acquisition 21                               yes              yes
7    Electronic Commerce/Electronic Data Interchange         yes              no
8    Electronic Military Personnel Records System            no               yes
9    Finance and Air Clearance Transportation System         yes              yes
10   Global Combat Support System – Marine Corps             yes              yes
11   Global Command and Control System – Maritime            yes              no
12   Maritime Corps Total Force System – Personnel           yes              yes
13   Material Finance Control System                         no               no
14   Military Sealift Command Financial Management           no               no
     System
15   Multifunctional Information Distribution System –       yes              yes
     Low Volume Terminal
16   Navair Depot Maintenance System                         yes              yes
17   Navair Program Management - Enterprise                  yes              yes
     Resource Planning
18   Navsea Navy Enterprise Maintenance Automated            no               yes
     Information System – Enterprise
19   Navy Air Force Interface                                yes              yes
20   Navy.com                                                yes              no
21   Navy Distance Learning System                           yes              yes
22   Navy Enterprise Resource Planning                       yes              no




                                             25
                                                             Inconsistent Data Between:
                                                                            IT Registry
                                                          IT Registry Mission Assurance
                                                          and ITMA         and Criticality
                                                             CIRs            Categories
             Navy Systems (cont’d)
23   Navy Marine Corps Intranet (NMCI)                        yes              yes
24   Navy Mission Planning System                             yes              yes
25   Navy Standard Integrated Personnel System                yes              yes
26   Navy Tactical Command Support System                     yes              no
27   Shipyard Management Information Systems –                yes              yes
     Infrastructure
28   SPAWAR Financial Management – Enterprise                 yes              yes
     Resource Planning
29   Standard Labor Data Collection and Distribution          yes              yes
     Accounting
30   Support Equipment Resource Management                    yes               no
     Information System
31   Trident Logistics Data System                            yes              yes
32   Uniform ADP – Inventory Control Points                   yes              yes
33   Uniform ADP System – Stock Points                        yes              yes

                Air Force Systems
1    Advanced Distributive Learning System                    yes              no
2    Air Force Mission Support System                         yes              yes
3    Battle Control System – Mobile                           yes              no
4    Cheyenne Mountain Complex/Tactical Warning –             yes              yes
     Attack Assessment
5    Combat Information Transport System                      yes              no
6    Depot Maintenance Accounting and Production              no               yes
     System
7    Financial Information Resource System                    yes              yes
8    Fuels Automated Management System Sustainment            yes              no
     – Air Force
9    Global Broadcast Service                                 yes              yes
10   Global Combat Support System- Air Force                  yes              yes
11   High Frequency Global Communications System              no               yes
12   Integrated Logistics System – Supply                     yes              yes
13   Integrated Maintenance Data System                       yes              no
14   Integrated Strategic Planning and Analysis Network       yes              no
15   Mobility Command and Control                             no               no
16   National Airspace System                                 yes              yes
17   Stock Control System                                     yes              yes




                                             26
                                                              Inconsistent Data Between:
                                                                             IT Registry
                                                           IT Registry Mission Assurance
                                                           and ITMA         and Criticality
                                                              CIRs            Categories
           Air Force Systems (cont’d)
18     Theater Battle Management Core Systems                  yes              yes
19     Theater Deployable Communications                       no               yes


             Defense Agency Systems
Defense Finance and Accounting System
1      Defense Cash Accountability System                      yes               yes
2      Defense Civilian Pay System                             yes               yes
3      Defense Departmental Reporting System                   yes               yes
4      Defense Industrial Financial Management System          yes               yes
5      Defense Joint Military Pay System – Active and          yes               yes
       Reserve Components
6      Defense Working Capital Fund Accounting System          yes               yes
7      DFAS Corporate Database/Warehouse                       no                yes
8      DFAS Electronic Business/Electronic Commerce            yes               no
9      E-Biz/Business Management Redesign                      yes               yes
10     Electronic Document Management Program                  no                no
11     Forward Compatible Payroll                              yes               yes
12     General Accounting and Finance System                   yes               yes
13     Marine Corps Total Force System                         yes               yes
14     Mechanization of Contract Administration Services       yes               yes
15     Standard Accounting and Reporting System                yes               yes
16     Standard Accounting Budgeting and Reporting             yes               yes
       System
Defense Logistics Agency
17     Business Systems Modernization – Energy                 yes               yes
18     Distribution Standard System                            no                yes
19     DLA Business Systems Modernization                      no                yes
20     DoD Emall                                               yes               yes
U.S. Transportation Command
21     Defense Enterprise Accounting and Management            yes               no
       System
22     Global Air Transportation Execution System              yes               yes
23     Global Decision Support System                          no                no
24     Global Transportation Network 21                        yes               yes




                                                27
                                                            Inconsistent Data Between:
                                                                           IT Registry
                                                         IT Registry Mission Assurance
                                                         and ITMA         and Criticality
                                                            CIRs            Categories
      Defense Agency Systems (cont’d)
TRICARE Management Agency
25     Defense Blood Standard System                         yes               no
26     Defense Medical Human Resource System Internet        no                yes
27     Defense Medical Logistics Standard System             yes               no
28     Defense Occupational and Environmental Health         no                yes
       Readiness System
29     Enterprise Wide Scheduling and Registration           yes               yes
30     Executive Information/Decision Support                no                yes
31     Expense Assignment System IV                          yes               yes
32     Military Computer-Based Patient Record                yes               yes
33     Theater Medical Information Program                   no                yes
34     Third Party Outpatient Collection System              yes               no
35     TRANSCOM (Medical) Regulating and Command             yes               no
       and Control Evacuation System
36     TRICARE Online                                        yes               yes
Defense Human Resource Agency
37     Defense Civilian Personnel Data System                yes               no
38     Defense Enrollment Eligibility Reporting System       yes               yes
39     Defense Integrated Military Human Resources           yes               no
       System
40     Protect Information – Common Access Card              yes               yes
Office of the Secretary of Defense
41     Defense Travel System                                 yes               yes
42     High Performance Computing Modernization              yes               yes
43     Long-Range Planning and Analytical Support            yes               yes
       System
Defense Information Systems Agency
44     Advanced Information Technology Services Joint        yes               no
       Program Office
45     Central Contractor Registration                       no                no
46     Common Operating Environment                          yes               yes
47     Defense Enterprise Computing Centers                  no                no
48     Defense Information System Network                    yes               no
49     Defense Message System                                no                no
50     Defense Technical Information Center                  yes               no
51     DoD Teleport                                          yes               no
52     Electronic Document Access                            no                no




                                             28
                                                          Inconsistent Data Between:
                                                                         IT Registry
                                                       IT Registry Mission Assurance
                                                       and ITMA         and Criticality
                                                          CIRs            Categories
      Defense Agency Systems (cont’d)
Defense Information Systems Agency (cont’d)
53     Global Combat Support System                        no                no
54     Global Command and Control System – Joint           yes               no
55     Global Exchange                                     no                yes
56     Joint Interoperability Test Command                 yes               yes
57     Net Centric Enterprise Services                     yes               no
58     White House Communications Agency                   yes               no
59     Wide Area Workflow                                  yes               no
Defense Commissary Agency
60     Point of Sales                                      yes               yes
61     Commissary Advanced Resale Transaction System       yes               yes
American Forces Information Services
62     Network Support – Armed Forces Information          yes               no
       Services
Missile Defense Agency
63     Computing Infrastructure                            yes               yes
Defense Contract Management Agency
64     Standard Procurement System                         yes               yes




                                            29
Appendix D. Mission Assurance Category and
            Mission Criticality Definitions

Mission Assurance Categories1                                           Mission Criticalities2

Mission Assurance Category I: Systems                                   Mission Critical: A system in which the loss
handling information that is determined to be                           would cause the stoppage of warfighter
vital to the operational readiness or mission                           operations or direct mission support of warfighter
effectiveness of deployed and contingency forces                        operations.
in terms of both content and timeliness. The
consequences of loss of integrity or availability
of a mission assurance category I system are
unacceptable and could include the immediate
and sustained loss of mission effectiveness.
Mission assurance category I systems require the
most stringent protection measures.

Mission Assurance Category II: Systems                                  Mission Essential: A system that the acquiring
handling information that is important to the                           Component Head determines basic and necessary
support of deployed and contingency forces. The                         for the accomplishment of the organizational
consequences of loss of integrity are                                   mission.
unacceptable. Loss of availability is difficult to
deal with and can only be tolerated for a short
time. The consequences could include delay or
degradation in providing important support
services or commodities that may seriously
impact mission effectiveness or operational
readiness.

Mission Assurance Category III: Systems                                 Mission Support: A system that is neither
handling information that is necessary for the                          mission critical nor mission essential.
conduct of day-to-day business, but does not
materially affect support to deployed or
contingency forces in the short-term. The
consequences of loss of integrity or availability
can be tolerated or overcome without significant
impacts on mission effectiveness or operational
readiness. The consequences could include the
delay or degradation of services or commodities
enabling routine activities.


1
    Defined in DoD Directive 8500.1, “Information Assurance,” October 24, 2002.
2
 Defined in DoD Instruction 5000.2, “Operation of Defense Acquisition System,” May 12, 2003 and Deputy CIO Memorandum, “Department
of Defense Information Technology Registry Guidance for FY 2005,” December 21, 2004.




                                                                     30
Appendix E. Summary of Data Elements Reviewed
       We reviewed 148 IT systems—32 Army, 33 Navy, 19 Air Force, and 64 Defense
       Agency—for consistent information between data elements in IT Registry reports and
       ITMA Capital Investment Reports. The following table summarizes, by data element
       and DoD Component, the 148 systems reviewed.

                                                                            Air       Defense
                                                    Army       Navy        Force      Agencies     Totals
                                 Inconsistent
       Security Control                               27         27          15             43      112
 1                                 Systems
          Test Date
                                    Percent          84.4       81.8        78.9            67.2   75.7*
                                 Inconsistent
                                                      12         12           8             17      49
 2    Accreditation Date           Systems
                                    Percent          37.5       36.4        42.1            26.6   33.1*
                                 Inconsistent
         Accreditation                                 5          6           5              3      19
 3                                 Systems
            Status
                                    Percent          15.6       18.2        26.3            14.1   12.8*
                                 Inconsistent
         Accreditation                                 2          2           4              4      12
 4                                 Systems
           Method
                                    Percent           6.3        6.1        21.1            6.3     8.1*
                                 Inconsistent
         Accreditation                                 1          2           2              1       6
 5                                 Systems
          Required
                                    Percent           3.2        6.1        10.5            1.6     4.1*
                                 Inconsistent
       System Security                                 4          8           2              2      16
                                   Systems
 6      Authorization
       Agreement Status             Percent          12.5       24.2        10.5            3.1    10.8*
                                 Inconsistent
      Risk Management                                  5          3           2              6      16
 7                                 Systems
            Plan
                                    Percent          15.6        9.1        10.5            9.4    10.8*
                                 Inconsistent
                                                       5          5           2              4      16
 8       Security Plan             Systems
                                    Percent          15.6       15.2        10.5            6.3    10.8*
                                 Inconsistent
       Security Incident                               5          3           2              5      15
 9                                 Systems
        Response Plan
                                    Percent          15.6        9.1        10.5            7.8    10.1*
 *
  This the percent between the total inconsistent systems and the total systems reviewed.




                                                     31
Appendix F. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense for Acquisition, Technology, and Logistics
   Director, Defense Business Transformation Agency
Under Secretary of Defense (Comptroller)/Chief Financial Officer
Under Secretary of Defense for Personnel and Readiness
Assistant Secretary of Defense for Networks and Information Integration/Chief Information
   Officer
Assistant Secretary of Defense for Health Affairs/Chief Information Officer
Assistant Secretary of Defense for Intelligence Oversight/Chief Information Officer
Chief Information Officer, Office of the Secretary of Defense
Director, Program Analysis and Evaluation

Joint Staff
Director, Joint Staff
Chief Information Officer, Joint Staff

Department of the Army
Assistant Secretary of the Army (Financial Management and Comptroller)
Auditor General, Department of the Army
Chief Information Officer, Department of Army

Department of the Navy
Assistant Secretary of the Navy (Financial Management and Comptroller)
Naval Inspector General
Auditor General, Department of the Navy
Chief Information Officer, Department of the Navy
Chief Information Officer, U.S. Marine Corps

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force
Chief Information Officer, Department of the Air Force




                                            32
Unified Commands
Chief Information Officer, U.S. Northern Command
Chief Information Officer, U.S. Southern Command
Chief Information Officer, U.S. Joint Forces Command
Chief Information Officer, U.S. Pacific Command
Chief Information Officer, U.S. European Command
Chief Information Officer, U.S. Central Command
Chief Information Officer, U.S. Transportation Command
Chief Information Officer, U.S. Special Operations Command
Chief Information Officer, U.S. Strategic Command

Other Defense Organizations
Director, Defense Finance and Accounting Service
Director, Defense Information Systems Agency
Chief Information Officer, American Forces Information Service
Chief Information Officer, Defense Advanced Research Projects Agency
Chief Information Officer, Defense Contract Audit Agency
Chief Information Officer, Defense Contract Management Agency
Chief Information Officer, Defense Commissary Agency
Chief Information Officer, Defense Finance and Accounting Agency
Chief Information Officer, Defense Human Resource Activity
Chief Information Officer, Defense Information Systems Agency
Chief Information Officer, Defense Logistics Agency
Chief Information Officer, Department of Defense Education Activity
Chief Information Officer, Department of Defense Inspector General
Chief Information Officer, Defense Security Cooperation Agency
Chief Information Officer, Defense Security Service
Chief Information Officer, Defense Technical Information Center
Chief Information Officer, Defense Threat Reduction Agency
Chief Information Officer, DoD Test Resources Management Center
Chief Information Officer, Defense Technology Security Administration
Chief Information Officer, Missile Defense Agency
Chief Information Officer, Pentagon Force Protection Agency
Chief Information Officer, TRICARE Management Agency
Chief Information Officer, U.S. Mission North Atlantic Treaty Organization
Chief Information Officer, Washington Headquarters Service

Non-Defense Federal Organization
Office of Management and Budget




                                            33
Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency and Financial Management, Committee on
   Government Reform
House Subcommittee on National Security, Emerging Threats, and International Relations,
   Committee on Government Reform
House Subcommittee on Technology, Information Policy, Intergovernmental Relations, and
   the Census, Committee on Government Reform




                                           34
    Assistant Secretary of Defense for Networks and
    Information Integration/Chief Financial
    Officer Comments




.



                            35
36
37
38
39
40
41
Team Members
   The Department of Defense Office of the Deputy Inspector General for Auditing,
   Acquisition and Technology Management prepared this report. Personnel of the
   Department of Defense Office of Inspector General who contributed to the report are
   listed below.

   Kathryn M. Truex
   Karen J. Lamar
   Robert R. Johnson
   Rebecca S. Courtade
